     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
May 25, 2011                                                              Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278

Report Number: A-02-09-01039

Ms. Suzanne M. Gannon
CFO, Medicare Operation
MedUS Services, LLC
HealthNow New York, Inc.
257 West Genesee Street
Buffalo, NY 14202

Dear Ms. Gannon:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Audit of HealthNow New York, Inc.’s Medicare Part B Final
Administrative Cost Proposal for Fiscal Year 2008. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Richard Schlitt, Audit Manager, at (212) 264-4817 or through email at
Richard.Schlitt@oig.hhs.gov. Please refer to report number A-02-09-01039 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Suzanne M. Gannon


Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




   AUDIT OF HEALTHNOW
 NEW YORK, INC.’S MEDICARE
PART B FINAL ADMINISTRATIVE
    COST PROPOSAL FOR
     FISCAL YEAR 2008




                   Daniel R. Levinson
                    Inspector General

                       May 2011
                     A-02-09-01039
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act established the Medicare Program. The Centers for
Medicare & Medicaid Services (CMS) administers the Medicare program through contractors,
including Part B carriers that process and pay Medicare claims. Contracts between CMS and the
Medicare contractors define the functions to be performed and provide for the reimbursement of
allowable administrative costs incurred in the processing of Medicare claims.

CMS contracts provide for the reimbursement of allowable administrative costs incurred in
processing Medicare claims. In claiming costs, contractors must follow cost reimbursement
principles contained in the Federal Acquisition Regulation (FAR) and the Medicare contracts.
Following the close of each fiscal year (FY), contractors submit to CMS a Final Administrative
Cost Proposal (cost proposal), which reports the Medicare administrative costs incurred during
the year. The cost proposal and supporting data provide the basis for the CMS contracting
officer and contractor to negotiate a final settlement of allowable administrative costs.

For FY 2008, CMS contracted with HealthNow New York, Inc. (HealthNow) to serve as the
Medicare Part B carrier for 45 counties in upstate New York. For this period, HealthNow
reported Medicare Part B administrative costs totaling $15,551,803, which included $850,571 in
transition costs.

In 2008, CMS awarded a Medicare Administrative Contract for the region covered by
HealthNow to National Government Services, Inc. (NGS), resulting in the transition of
responsibilities under the Part B contract from HealthNow to NGS on September 1, 2008.

OBJECTIVES

Our objectives were to determine whether (1) the HealthNow cost proposal for FY 2008 fairly
presented program administration costs and (2) the costs were reasonable, allowable, and
allocable in accordance with the FAR and the Medicare contract.

SUMMARY OF FINDINGS

HealthNow’s reported expenditures in its FY 2008 cost proposal substantially complied with the
FAR and the Medicare contract. However, HealthNow overstated its cost proposal by $18,668.
Specifically, HealthNow overstated its return on investment by $11,283 and reported unallocable
subcontract costs ($4,174), as well as unallowable public relations and advertising costs
($3,211).

RECOMMENDATION

We recommend that HealthNow decrease its cost proposal by $18,668 to reflect the unallowable
administrative costs.



                                               i
HEALTHNOW COMMENTS

In written comments on our draft report, HealthNow agreed with our findings. HealthNow’s
comments appear in their entirety as Appendix D.




                                             ii
                                                 TABLE OF CONTENTS
                                                                                                                                  Page

INTRODUCTION ..................................................................................................................1

          BACKGROUND ..........................................................................................................1

          OBJECTIVES, SCOPE, AND METHODOLOGY ......................................................1
               Objectives .........................................................................................................1
               Scope .................................................................................................................1
               Methodology .....................................................................................................2

FINDINGS AND RECOMMENDATION............................................................................3

          OVERSTATED RETURN ON INVESTMENT ..........................................................3

          UNALLOCABLE SUBCONTRACT COSTS .............................................................4

          UNALLOWABLE PUBLIC RELATIONS AND ADVERTISING COSTS ..............4

          RECOMMENDATION ................................................................................................4

APPENDIXES

          A: COSTS REPORTED ON FINAL ADMINISTRATIVE COST PROPOSAL BY
             COST CLASSIFICATION

          B: OFFICE OF INSPECTOR GENERAL RECOMMENDED COST
             ADJUSTMENTS

          C: COMPARISON OF ADMINISTRATIVE COSTS REPORTED TO BUDGET
             AUTHORIZATION

          D: HEALTHNOW COMMENTS




                                                                    iii
                                               INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act established the Medicare Program. The Centers for
Medicare & Medicaid Services (CMS) administers the Medicare program through contractors,
including Part B carriers that process and pay Medicare claims. Contracts between CMS and the
Medicare contractors define the functions to be performed and provide for the reimbursement of
allowable administrative costs incurred in the processing of Medicare claims.

CMS contracts provide for the reimbursement of allowable administrative costs incurred in
processing Medicare claims. In claiming costs, contractors must follow cost reimbursement
principles contained in the Federal Acquisition Regulation (FAR) and the Medicare contracts.
Following the close of each fiscal year (FY), contractors submit to CMS a Final Administrative
Cost Proposal (cost proposal), which reports the Medicare administrative costs incurred during
the year. The cost proposal and supporting data provide the basis for the CMS contracting
officer and contractor to negotiate a final settlement of allowable administrative costs.

For FY 2008, CMS contracted with HealthNow New York, Inc. (HealthNow) to serve as the
Medicare Part B carrier for 45 counties in upstate New York. 1 For this period, HealthNow
reported Medicare Part B administrative costs totaling $15,551,803, which included $850,571 in
transition costs. (See Appendix A.)

In 2008, CMS awarded a Medicare Administrative Contract for the region covered by
HealthNow to National Government Services, Inc. (NGS), resulting in the transition of
responsibilities under the Part B contract from HealthNow to NGS on September 1, 2008.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether (1) the HealthNow cost proposal for FY 2008 fairly
presented program administration costs and (2) the costs were reasonable, allowable, and
allocable in accordance with the FAR and the Medicare contract.

Scope

Our review covered the period October 1, 2007, through August 31, 2008 (the date CMS
terminated its contract with HealthNow). For this period, HealthNow reported Medicare Part B
administrative costs totaling $15,551,803, which included $850,571 in transition costs. These
costs also included pension costs totaling $4,833 that we excluded from this review because they
will be the subject of a separate audit. 2 HealthNow did not report any forward-funding costs in

1
    Upstate Medicare Division, a division of HealthNow, processed the Part B claims.
2
  We will also be issuing a separate report (A-02-11-01020) on cost submitted by Health Now related to the
termination of the Medicare contract.

                                                          1
its cost proposal for this period. We reviewed only those internal controls necessary to achieve
our audit objectives.

We conducted fieldwork at HealthNow’s office in Buffalo, New York.

Methodology

To accomplish our objectives, we:

        •        reviewed applicable Medicare laws, regulations, and guidelines;

        •        reviewed the applicable sections of the FAR and HealthNow’s contract with
                 CMS;

        •        reviewed HealthNow’s independent auditor’s report on its financial statements for
                 calendar years (CY) 2007 and 2008, and the independent auditor’s letter related to
                 its consideration of HealthNow’s internal controls for CY 2008;

        •        reviewed a prior Office of Inspector General audit report; 3

        •        reconciled expenses on the cost proposals and cost classification reports to
                 HealthNow’s accounting records;

        •        tested costs for reasonableness, allowability, and allocability;

        •        selected and reviewed a judgmental sample of journal entries, invoices, expense
                 vouchers and reports, contracts and agreements, and additional supporting
                 documentation;

        •        interviewed HealthNow officials to gain an understanding of HealthNow’s cost
                 accumulation processes and cost allocation systems;

        •        reviewed payroll journals, corporate bonus plans, and personnel records; and

        •        selected a judgmental sample of 30 individual employees and verified that the
                 amount paid to each employee was in accordance with the employee’s pay rate,
                 the employee’s salary was charged to the correct cost center, and the number of
                 hours paid agreed with the employee’s time reports.




3
 Audit of HealthNow New York, Inc’s, Medicare Part B Final Administrative Cost Proposals for Fiscal Years 2005
Through 2007 (A-02-08-01003).


                                                      2
In addition, for each of the five highest paid HealthNow executives who had salaries allocated to
Medicare, we:

       •       traced employee data from HealthNow’s year-end payroll registers to the
               executive’s Form W-2;

       •       reviewed total compensation payout data and supporting documentation;

       •       compared executive compensation costs to benchmark amounts published in the
               Federal Register; and

       •       applied the Medicare allocation percentage to the executive’s total compensation,
               up to the benchmark amount, to determine the allowable executive compensation
               amount.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                           FINDINGS AND RECOMMENDATION

HealthNow’s reported expenditures in its FY 2008 cost proposal substantially complied with the
FAR and the Medicare contract provisions. However, HealthNow overstated its cost proposal by
$18,668. Specifically, HealthNow overstated its return on investment by $11,283 and reported
unallocable subcontract costs ($4,174), as well as unallowable public relations and advertising
costs ($3,211). (See Appendix B.)

OVERSTATED RETURN ON INVESTMENT

Pursuant to section X.A of Appendix B of the Medicare contract, return on investment shall be
determined by “multiplying the average undepreciated balance of such assets for the contract
period by the actual rate of return of the contractor’s investment portfolio for the contract period,
or a lower rate if the contractor so chooses.”

To calculate its return on investment, HealthNow used the rate of return of its investment
portfolio for FY 2007 instead of the rate for the contract period (FY 2008). HealthNow officials
informed us that this was due to a clerical error. We recalculated the return on investment using
the FY 2008 rate of return and determined that HealthNow overstated this cost on its cost
proposal by $11,283.




                                                  3
UNALLOCABLE SUBCONTRACT COSTS

Pursuant to section 31.204(a) of the FAR, costs are allowable to the extent they are reasonable,
allocable, and determined to be allowable. Further, section 31.201-4 of the FAR states that “a
cost is allocable if it is assignable or chargeable to one or more cost objectives on the basis of
relative benefits received or other equitable relationship.”

HealthNow reported $4,174 in non-Medicare related subcontract costs on its cost proposal.
HealthNow officials informed us that this was due to a clerical error.

UNALLOWABLE PUBLIC RELATIONS AND ADVERTISING COSTS

Pursuant to section 31-205-1(f)(7) of the FAR, public relations and advertising costs are
unallowable, including “costs of memberships in civic and community organizations.” Further,
pursuant to section 31.205-22 of the FAR, lobbying and political activity costs are unallowable.

HealthNow reported unallowable costs totaling $3,211 on its cost proposal related to
membership dues to a civic group that advocates for improving the upstate New York business
climate. Among other activities, the group provides lobbying, political advocacy and
government relations support.

RECOMMENDATION

We recommend that HealthNow decrease its cost proposal by $18,668 to reflect the unallowable
administrative costs.

HEALTHNOW COMMENTS

In written comments on our draft report, HealthNow agreed with our findings. HealthNow’s
comments appear in their entirety as Appendix D.




                                                 4
APPENDIXES
APPENDIX A: COSTS REPORTED ON FINAL ADMINISTRATIVE
      COST PROPOSAL BY COST CLASSIFICATION

   Cost Category                         Amount

   Salaries/Wages                       $7,977,694
   Fringe benefits                       3,535,244
   Facilities or Occupancy               1,664,263
   EDP Equipment                           970,125
   Subcontracts                          2,088,646
   Outside Professional Services           108,121
   Telephone and Telegraph                 133,871
   Postage and Express                   1,268,623
   Furniture and Equipment                 514,632
   Materials and Supplies                  138,545
   Travel                                   66,270
   Return on Investment                     17,194
   Miscellaneous                           326,779
   Other                                     2,156
    Subtotal                          $18,812,163
   Other Adjustments (Credits)         (3,260,360)
    Total Costs                       $15,551,803
   Forward Funding                               0
    Total Costs Reported              $15,551,803
              APPENDIX B: OFFICE OF INSPECTOR GENERAL
                  RECOMMENDED COST ADJUSTMENTS


                      Finding Category               Adjustments

Overstated Return on Investment                            $11,283
Unallowable Subcontract Costs                                4,174
Unallowable Public Relations And Advertising Costs           3,211
         OIG Recommended Adjustments                       $18,668
             APPENDIX C: COMPARISON OF ADMINISTRATIVE COSTS
                   REPORTED TO BUDGET AUTHORIZATION

                                                     Administrative      Variance
                                      Budget            Costs            Favorable
             Operation             Authorization       Claimed         (Unfavorable)

Program Management
Bills/Claims Payment                  $11,095,007       $11,206,931        $(111,924)
Appeals/Reviews                          1,629,606         1,632,227           (2,621)
Beneficiary Inquiries                       89,404            57,389            32,015
Participating Physician                     46,249            25,918            20,331
Provider Enrollment                      1,686,979         1,512,339          174,640
Provider Telephone Inquiries             1,583,126         1,413,006          170,120
Provider Outreach and Educ.                198,898           182,696            16,202
Credits                                (3,077,744)       (3,260,360)          182,616
   Subtotal                           $13,251,525       $12,770,146          $481,379

Medicare Integrity
Medical Review                         $1,349,982         $1,197,487        $152,495
MSP - Prepayment                          168,541            159,009           9,532
Benefit Integrity                          15,963             12,981           2,982
MSP - Postpayment                         116,110             97,640          18,470
MIP - Prov Outreach and Educ.             485,711            463,969          21,742
  Subtotal                             $2,136,307         $1,931,086        $205,221

Total without Transition               15,387,832         14,701,232         686,600

Transition                                947,360           850,571            96,789

Total                                 $16,335,192       $15,551,803         $783,389




Note: All amounts were taken from Final Administrative Cost Proposal (Supplement
No. 3) and Notification of Budget Approval (Supplement No. 12)
APPENDIX D: HEALTHNOW COMMENTS
